LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 27, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 21-118:

APPLE INC. V. OPTIS CELLULAR TECHNOLOGY, LLC, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae ACT | The App
Association on August 27, 2021, I caused service to be made pursuant to Rule 29 and the
Temporary Order of April 15, 2020 on the following counsel for the Petitioner, Respondents and
Invervenor:
PETITIONER:
Catherine Mary Agnes Carroll
Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, NW
Washington, DC 20006
202-663-6072
catherine.carroll@wilmerhale.com
RESPONDENTS Optis Cellular
Technology, LLC, Optis Wireless
Technology, LLC, and Unwired Planet
International Limited:
Jason Sheasby
Hong Annita Zhong
Irell & Manella LLP
1800 Avenue of the Stars
Los Angeles, CA 90067
(310) 203-7096
jsheasby@irell.com
hzhong@irell.com

INTERVENOR Andrew Hirshfeld,
Performing the Functions and Duties
of the Under Secretary of Commerce
for Intellectual Property and Director
of the United States Patent and
Trademark Office:
Brian Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

This service was effected by depositing one copy of the Brief of Amicus Curiae ACT |
The App Association in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 27th day of August 2021.

